Audit of NSB Compliance with the Government
             in the Sunshine Act


        National Science Foundation
        Office of Inspector General

               February 13, 2004
                 OIG 04-2-002
Introduction
Background              The National Science Board (NSB or Board) is the governing
                        board of the National Science Foundation (NSF), an
                        independent Federal agency established by the National
                        Science Foundation Act of 1950. The Board is composed of
                        24 part-time Presidentially appointed members, and the NSF
                        Director, who are selected on the basis of their eminence in
                        research or public affairs.

                        The Board has responsibility for providing national science
                        policy advice to the President and to the Congress and for
                        acting as the governing board of the NSF. The Board
                        conducts its business during two-day meetings, which are
                        generally held five to six times a year. Much of the
                        background work of the Board is done through its
                        committees.

                        Currently, the Board has five standing committees:
                        Executive, Audit and Oversight, Education and Human
                        Resources, Programs and Plans, and Strategy and Budget.
                        These committees, and other subcommittees and task
                        forces, generally meet during the same two-day period as
                        the full Board. In addition, the committees occasionally meet
                        at other times throughout the year on an as-needed basis.

The Government in the   In the early 1970s, partially in response to the Watergate
Sunshine Act            scandal, Congress enacted the Government in the Sunshine
                        Act along with other anti-secrecy legislation. Congress
                        intended the Sunshine Act to open the government’s
                        deliberation processes to public scrutiny.

                        The Act applies to agencies “headed by a collegial body
                        composed of two or more individual members . . . and any
                        subdivision thereof authorized to act on behalf of the
                        agency,”1 and covers some 50 Federal agencies, including
                        the National Science Board. The Act requires that “every
                        portion of every meeting of an agency shall be open to public
                        observation”2 with ten narrow exemptions for discussions of
                        material that are likely to disclose:

                                  (1) National Defense and foreign policy;
                                  (2) Internal personnel rules and practices;

                        1
                            5 U.S.C. §552b(a)(1).
                        2
                            Id. at §552b(b).


                                                                                Page 1 of 15
                                   (3) Statutory exemptions;
                                   (4) Proprietary information;
                                   (5) Accusation of crime or formal censure;
                                   (6) Personal privacy;
                                   (7) Investigatory records;
                                   (8) Financial institution reports;
                                   (9)(A) Financial speculation and stability;
                                   (9)(B) Frustration of proposed agency action; and
                                   (10) Issuance of subpoena, participation in civil action
                                   or proceeding, or formal agency adjudications.3

                         While the Act does not require an agency to hold meetings, it
                         does contain a number of procedural requirements that must
                         be followed when an agency decides to meet for either a
                         closed or open session. First, at least one week prior to
                         each meeting, the agency must make a public
                         announcement regarding the date, time, and place of the
                         meeting and whether the meeting is to be open or closed.

                         Additionally, to close all or a portion of a meeting, an agency
                         must vote to do so and make publicly available a written
                         copy of the vote and a “full written explanation of its action
                         closing the portion [of the meeting].”4 Also, for a closed
                         meeting, the agency’s General Counsel must publicly certify
                         that the meeting may be closed under one of the Act’s
                         exemptions. Finally, the agency must annually report to the
                         Congress: any changes in the agency’s policies and
                         procedures under the Act; a tabulation of the number of
                         meetings held, exemptions applied, and the days of public
                         notice provided; a brief description of litigation or formal
                         complaints concerning the implementation of the Act; and
                         any changes in law that have affected the open-meeting
                         responsibilities of the agency.

Open Meetings of the   In accordance with the Government in the Sunshine Act, the
National Science Board National Science Board has traditionally opened its full-
                       Board meetings to the public. However, prior to 2003, the
                       Board did not provide public access to the meetings of its
                       committees, subcommittees, taskforces, or other
                       subdivisions.

                         The NSF Authorization Act of 2002, which became effective
                         in December 2002, contained administrative amendments to


                         3
                             5 U.S.C. §552b(c).
                         4
                             Id. at §552b(d)(3).


                                                                                Page 2 of 15
                    the National Science Foundation Act pertaining to NSB
                    meetings. As part of these amendments, the Congress
                    specified that in addition to meetings of the full Board, “all of
                    its subcommittees, and task forces (and any other entity
                    consisting of members of the Board and reporting to the
                    Board) shall be subject to [the Sunshine Act].”5
                    Consequently, during 2003, the Board opened to the public
                    for the first time, its committee and other subdivision
                    meetings.

Audit Requirement   In keeping with its interest in seeing greater openness in
                    NSB meetings, the Congress placed another requirement in
                    the NSF Authorization Act directing that the NSF Office of
                    Inspector General (OIG) “conduct an annual audit of the
                    compliance by the Board with [the Sunshine Act].”6 The
                    audit is “to examine the proposed and actual content of
                    closed meetings and determine whether the closure of the
                    meetings was consistent with [the Act].”7 In a report
                    submitted to the Congress by February 15th of each year, the
                    OIG is to make “recommendations for corrective actions that
                    need to be taken to achieve fuller compliance with [the
                    Sunshine Act] and recommendations on how to ensure
                    public access to the Board’s deliberations.”8




                    5
                      Pub. L. No. 107-368 (2002).
                    6
                      Id.
                    7
                      Id.
                    8
                      Id.


                                                                          Page 3 of 15
Objectives, Scope, and Methodology

                 In keeping with the audit requirements contained in the NSF
                 Authorization Act of 2002, the objectives of our audit were to:

                    •   Determine whether the Board’s closures of meetings
                        were consistent with the exemptions contained in the
                        Government in the Sunshine Act, and

                    •   Determine whether the NSB and its subdivisions are
                        in compliance with the procedural requirements of the
                        Government in the Sunshine Act.

                 The NSB Office identified 6 meetings of the Board
                 (February, March, May, August, October, and November
                 2003) plus 11 telephone meetings of NSB Committees for a
                 total of 17 meetings. However, for the purposes of this audit,
                 these meetings were sub-divided into the various committee,
                 subcommittee, and task force meetings that, together with
                 the full Board meetings, yield a total count of 100 separate
                 meetings of which 30 were closed. For the purposes of this
                 count, we considered a committee meeting with both an
                 open and closed portion on the same day as two separate
                 meetings: one open and one closed. However, we
                 considered a committee meeting that met for more than one
                 non-consecutive time frame during a single day, and was
                 either entirely open or entirely closed, as one meeting. For
                 example, an open Task Force on Polar Issues meeting from
                 1:00pm to 3:00pm, with a closed portion from 1:30 to 2:00
                 counted as two meetings. Likewise, an open Education and
                 Human Resources Committee meeting from 9:00am to
                 10:00am and again from 1:00pm to 2:00pm on the same
                 day, with no closed session, counted as one meeting.

                 To determine whether the Board closed its meetings in
                 accordance with the Sunshine Act exemptions, we reviewed
                 transcripts and electronic recordings of closed meetings and
                 compared them with meeting agendas. We also compared
                 actual meeting discussions with the General Counsel
                 certifications and the Board’s explanations for closing
                 meetings.

                 To determine whether the Board complied with the
                 procedural requirements of the Act, we met with agency
                 personnel to determine its applicable policies, procedures,



                                                                     Page 4 of 15
and practices. We gathered and reviewed documentation
for all meetings to determine whether the Board met the
Act’s requirements for public notice. For each of the 30
closed meetings, we reviewed documentation to determine
whether the Board met the applicable Act requirements,
including the vote to close and General Counsel certification.
Finally, we reviewed the Board’s most recent annual report
to the Congress, submitted in 2003 for calendar year 2002,
to determine whether it complied with the Sunshine Act’s
reporting requirements.

We conducted our work between October 2003 and January
2004 in accordance with generally accepted government
auditing standards.




                                                   Page 5 of 15
Results of Audit
                   Overall, we found a clear intent on the part of the Board to
                   provide for greater access to and increased openness in its
                   meetings. With respect to the Board’s decisions to close
                   meetings, we found that the Board properly closed its
                   meetings consistent with the exemptions contained in the
                   Sunshine Act.

                   However, we also found that during 2003, the Board
                   experienced some challenges in meeting all of the many
                   procedural requirements of the Sunshine Act. With the
                   opening to the public of the meetings of the Board’s
                   committees, subcommittees, and task forces, the complexity
                   of complying timely with the Act’s procedural requirements
                   increased. Accordingly, the NSB needs to have in place
                   formal policies and procedures that define the various
                   participants’ roles and responsibilities for complying with the
                   Act’s numerous procedural requirements. Such policies and
                   procedures would help ensure that staff involved clearly
                   understand what is required and when, and would assign
                   clear accountability for accomplishing the tasks timely. We
                   recommend that the Board develop, implement, and provide
                   training on such policies and procedures to ensure greater
                   consistency and accountability in complying with the
                   Sunshine Act’s requirements in the future.

                   We also noted opportunities for increased open meeting
                   discussions by enhancing the Board’s access to information
                   on anticipated agenda items prior to meetings. Such
                   information could allow for more informed NSB decisions of
                   when to close a meeting and hopefully maximize the number
                   of open meetings.




                                                                       Page 6 of 15
Decisions to Close
Meeting Closure is   With one exception during 2003, the Board properly closed
Largely Consistent   its meetings consistent with the exemptions contained in the
with Sunshine Act    Sunshine Act. The overall presumption of the Sunshine Act
Exemptions           is in favor of open meetings. This is consistent with the Act’s
                     underlying policy that “the public is entitled to the fullest
                     practicable information regarding the decision-making
                     processes of the Federal Government.”9 By conducting
                     most of its meetings in the public forum, the Board helped
                     keep the public more informed about how government
                     operates while still protecting individuals’ privacy. The
                     Sunshine Act has built-in exceptions to its open meeting
                     requirement. The starting point for any meeting is always
                     openness; however, an agency may choose to close a
                     meeting if the discussion is likely to disclose information
                     contained in one of the Act’s ten exemptions.

                     During 2003, the NSB and its various subdivisions held a
                     total of 30 of its 100 total meetings that were closed for
                     reasons involving 8 of the 10 exemptions. Discussions in
                     closed meetings involved the following topics:

                           •   future budgets,
                           •   awards and agreements,
                           •   specific personnel matters, and
                           •   OIG briefings on active investigations.

                     Discussions held during these closed sessions did follow the
                     planned agendas for the meetings and did pertain to topics
                     that the Board had decided were covered by one or more of
                     the Act’s exemptions. Only one closed meeting agenda
                     item, concerning a budget request for a fiscal year that had
                     already been submitted by the President to the Congress,
                     was clearly not covered by an exemption.10 The remaining
                     9
                       Pub. L. No. 94-409, 90 Stat. 1241, at §2 (1976).
                     10
                        In May 2003, an unusual situation occurred where the Board was
                     discussing the NSB FY2004 budget request, which unlike the NSF
                     FY2004 request, had not yet been submitted to the President or the
                     Congress. The NSF Act provides that portions of meetings in which the
                     Board considers proposed budgets for a particular fiscal year may be
                     closed until the President’s budget for that fiscal year has been
                     submitted to the Congress. 42 U.S.C. §1863(k). Because the
                     President’s budget for FY2004 budget was submitted to the Congress in
                     February 2003, the May discussion did not meet this criterion for closure.
                     In FY 2005, the NSB budget was submitted to the Congress along with
                     the full NSF budget as part of the President’s FY 2005 budget.


                                                                                  Page 7 of 15
agenda items and discussions did properly meet at least one
of the Act’s exemptions to the open meeting requirement.




                                                Page 8 of 15
Procedural Compliance
More Consistent   The Sunshine Act is replete with detailed procedural
Compliance with   requirements that must be followed for both open and closed
Procedural        meetings. The Board has shown a clear intent to comply
Requirements is   with these requirements and has followed these
Needed            requirements in the past for meetings of the full Board.
                  However, with the increased opening to the public of the
                  Board’s committees, subcommittees, and task forces, the
                  complexity of complying timely with the Act’s procedural
                  requirements increased. Consequently, the Board
                  experienced some challenges and difficulties during 2003 in
                  ensuring that all of its committees, subcommittees, and other
                  subdivisions also followed all of the Act’s many
                  requirements.

                  For example, while in 2003 the Board fully complied with
                  requirements to conduct a vote to close and have the
                  General Counsel certify for all of its closed meetings, it was
                  not always timely in providing public notice of its meetings.
                  The Act requires that public notice must be made one week
                  in advance. Public notices for only 54 of the 100 meetings
                  were done timely enough to provide the required full week’s
                  notice, although 27 of the untimely public notices missed the
                  statutory requirement by only one day.

                  The Board also needs to improve the timeliness of providing
                  the public information regarding its votes and reasons for
                  closing meetings. The Sunshine Act requires that the Board
                  make available to the public, within one day, a written copy
                  of its votes to close any of its meetings, along with an
                  explanation for why it made its decision. While the Board did
                  make public its votes to close 25 of the 30 closed meetings,
                  it took anywhere from 8 to 92 days in all but 3 instances to
                  make this public. Also, its public disclosure of its decisions
                  did not always include a timely explanation of its decision to
                  close the meetings.

                  The Sunshine Act requires the Board to maintain a complete
                  transcript or electronic recording of all closed meetings.
                  During 2003, the Board met this requirement for 25 of its 30
                  closed meetings. For the remaining 5 meetings, the Board
                  experienced technical difficulties with making electronic
                  recordings. Some recordings were difficult to understand
                  and at least one did not include the entire discussion. The
                  Board, however, has recognized the need to ensure that


                                                                     Page 9 of 15
                         quality recordings are made of its closed meetings and is
                         modifying its practices with respect to these recordings. To
                         the extent possible, the Board now holds all closed meetings
                         in the main boardroom, which has a quality sound recording
                         system and individual microphones for each speaker. In
                         addition, the Board office is assigning an individual to ensure
                         that the recording equipment is properly activated prior to
                         each meeting.

                         Finally, the Board is required to submit an annual report to
                         the Congress on certain aspects of its open meeting
                         activities, including a tabulation of the number of meetings,
                         the number of days of public notice given for each, and the
                         exemptions applied to closed meetings. In its report on its
                         2002 meetings, submitted to the Congress in February 2003,
                         the Board met all of the statutory requirements except for
                         including a tabulation of the number of days of public notice
                         given for each meeting.

                         The purpose of the Sunshine Act is to open the
                         government’s deliberation processes to public scrutiny and
                         the underlying premise of the Act is that public observation
                         will provide for greater accountability on the part of public
                         officers and increase the public’s confidence in and
                         understanding of the governmental decision making process.
                         By providing more timely information regarding upcoming
                         meetings and votes and reasons for closing meetings, the
                         Board can better fulfill the Act’s objective of an open
                         government.

Formalized Procedures Better procedural guidance would help the NSB address
Can Help Ensure       these procedural gaps in compliance. Currently, the Board’s
Compliance            only formal policy governs attendance at its meetings and
                      does not address procedural compliance with the Sunshine
                      Act.

                         While compliance with the Act can certainly occur without a
                         formal policy – as it did in prior years – the increase in
                         number of meetings subject to the Act has made compliance
                         more challenging, suggesting the need for formalization to
                         ensure requirements are clearly understood and fully
                         assigned. During 2002, only meetings of the full Board were
                         subject to the requirements of the Sunshine Act. Thus, only
                         12 meetings – six open and six closed – were involved.
                         Comparatively, in 2003, meetings subject to the Act included
                         not only the full-Board meetings, but also committee and



                                                                            Page 10 of 15
                  other subdivision meetings both outside of and within the
                  regular two-day sessions, so that 100 meetings – 70 open
                  and 30 closed – were now involved.

                  This increased workload brings with it more chance for
                  noncompliance. Without a formal policy explicitly stating and
                  assigning compliance-related responsibilities, requirements
                  may be overlooked or not performed timely, if at all. Without
                  documented procedures, no one may be aware of the
                  actions necessary for compliance when key employees are
                  absent.

                  Responsibilities for NSB compliance with the Act are spread
                  over numerous individuals, further warranting the
                  widespread need for formal clarification of duties in writing.
                  For example, according to guidance issued by NSF’s
                  General Counsel, the Executive Secretaries of each of the
                  Board’s subdivisions are responsible for recordings or
                  transcripts of closed meetings. However, we found in
                  practice, this responsibility often fell to an audiovisual
                  technician who on a few occasions, forgot to initiate the
                  recordings when meetings closed.

                  While not required by the Act itself, we suggest that the
                  Board consider consolidating strict compliance activities
                  under one individual within the Board office. By appointing a
                  Sunshine Act “compliance officer,” there would be the dual
                  effect of both providing accountability over this important
                  function and also raising the level of importance and
                  awareness of Sunshine Act compliance.

Recommendations   In light of the need for formal policies and procedures, we
                  recommend that the Executive Officer of the National
                  Science Board:

                  •   Develop formal policies and procedures to address
                      compliance with the procedural requirements of the
                      Sunshine Act. The guidance should clearly spell out all
                      of the procedural requirements for both open and closed
                      meetings, and should define the various roles and
                      responsibilities involved in Sunshine Act compliance.
                      Additionally, it should detail the necessary time frames
                      within which activities must occur. The guidance should
                      specifically address those requirements for which the
                      Board has had difficulty meeting over the past year such
                      as timely public notice and timely production of the Board



                                                                    Page 11 of 15
    vote to close and its explanation. It may be appropriate
    to include in such guidance a sample calendar for the
    events that must both precede and follow a meeting, and
    a method such as a detailed checklist for ensuring those
    dates are met.

•   Provide training to all affected staff members, both within
    the Board office and NSF, on the new policies and
    procedures and Sunshine Act compliance in general.
    Such training will ensure that individuals who are
    responsible for and support compliance activities
    understand both the nature of those activities as well as
    their importance to Board accountability and openness.




                                                   Page 12 of 15
Other Matters for Consideration
                  Sometimes it is necessary for the Board to hold discussions
                  of open material along with closed material, in order to
                  provide the proper context. It would be extremely difficult for
                  the Board to try to segregate such discussion items into
                  separate open and closed portions.

                  While it may not always be possible to know in advance
                  whether a particular subject will arise during a discussion,
                  making increased information available to the Board office
                  prior to a meeting can assist in making a better
                  determination of which agenda items should be in open or
                  closed meetings. Currently, the Board votes to close
                  portions of its regular two-day sessions well in advance, e.g.
                  during its prior two-day session. This vote is based upon the
                  Board’s experience with the types of discussions that
                  typically arise during its meetings and may not be made with
                  reference to any specific agenda items. Shortly after the
                  vote, the Board’s Executive Officer meets with the Executive
                  Secretaries of the Board’s various subdivisions to discuss
                  upcoming agenda items and whether discussions may meet
                  one of the Sunshine Act exemptions and thus be held during
                  a closed session. During the time prior to the next meeting,
                  the Executive Secretaries keep in contact with the Executive
                  Officer and their respective committee chairs to further refine
                  agenda items. Roughly two weeks prior to the next meeting,
                  the Executive Secretaries and Executive Officer meet again
                  to finalize agenda items and whether certain discussions
                  should be held during open or closed meetings.

                  This process is dependent upon receipt of timely and quality
                  information from NSF on issues being brought to the Board
                  for consideration. Without such information, the Executive
                  Secretaries and Executive Officer may not be able to
                  properly assist the Board in making the best decisions on
                  how to segregate discussions and may conservatively opt for
                  closing the meeting.

                  For example, with respect to proposed awards and
                  agreements, NSF staff present recommendations to the
                  Board. The more information NSF can provide sooner to the
                  Executive Officer, the better he can parcel discussions into
                  open and closed sessions. In fact, this occurred on at least
                  two occasions when the Executive Officer had access to
                  NSF presentations prior to Board meetings and ultimately


                                                                     Page 13 of 15
modified which portions of proposed discussions were
assigned to closed or open sessions.

Consequently, the Board and its Executive Officer may wish
to consider methods for gaining earlier access to information
that NSF plans to present to the Board for discussion so as
to better inform the Board’s decision on how to segregate its
discussions in to open and closed meetings.




                                                 Page 14 of 15
Agency Response


                  The National Science Board reviewed a draft of this report
                  and responded that it is “committed to fully complying with
                  the Government in the Sunshine Act.” The NSB agrees with
                  our report’s findings, recommendations, and suggestions
                  and is already taking steps to address them. In addition,
                  based on comments provided by the NSB Executive Officer,
                  we have included some clarification in the final report.

                  We have attached the NSB's response to this report in its
                  entirety as an appendix.




                                                                   Page 15 of 15
